No. 19-1063
INTHE

JOY DENBY-PETERSON,

Petitioner,
V.

Nu2U AUTO WORLD, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I, Craig Goldblatt, a member of the
bar of this Court, certify that the accompanying Amicus Curiae Brief for Third Circuit
Court-Appointed Amicus Curiae Supporting Neither Party contains 951 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.l(d).
Executed on April 16, 2020.

CRAIG GOLDBLATT
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
craig.goldblatt@wilmerhale.com

